                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-29A                                   Office of Inspections                                       May 2013




                            Inspection of
                      Embassy Juba, South Sudan




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                    1
Context                                                                          2
Executive Direction                                                              3
Policy and Program Implementation                                                7
  Coordination and Communication                                                 7
  Policy Advocacy and Reporting                                                  7
  Political/Economic and International Law Enforcement and Narcotics Sections   10
  Public Diplomacy                                                              12
  Broadcasting Board of Governors                                               14
  Consular Affairs                                                              15
Resource Management                                                             19
  Financial Management                                                          21
  Human Resources                                                               23
  General Services                                                              26
  Facilities                                                                    27
  Fire Protection, Safety, Health, and Environmental Management                 28
  Information Management                                                        28
Quality of Life                                                                 31
  Health Unit                                                                   31
Management Controls                                                             32
  Financial Management                                                          32
  Visa Adjudication Review                                                      33
List of Recommendations                                                         34
List of Informal Recommendations                                                38
Principal Officials                                                             40
Abbreviations                                                                   41




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   The Department of State (Department) has been unable to staff Embassy Juba adequately,
    preventing the embassy from functioning as effectively as it should.

   The Embassy Juba chancery is too small, (b) (5)                             . Until the
    Department renovates or expands the existing facility or constructs a new embassy
    compound (NEC), there will be no easy way to accommodate additional staff. A new
    embassy is scheduled for construction in 2018.

   Officers from the Department and other agencies are dedicated and work together collegially,
    but 1-year tours weaken embassy reporting. Embassy Juba can enhance the quality and
    volume of its reporting by improving information sharing, hiring a protocol specialist, and
    adjusting political/economic section staffing.

   The Office of the U.S. Special Envoy for Sudan and South Sudan (S/USSESSS) and
    Embassy Juba share responsibility for U.S. policy toward South Sudan. There is no U.S.
    Government multiyear strategy to guide policy and programmatic engagement with South
    Sudan, however. The overlap of command and control between S/USSESSS and the
    Ambassador has resulted in occasional S/USSESSS guidance on bilateral issues that conflicts
    with chief of mission priorities.

   Embassy Juba has an active outreach program that has the Ambassador’s full participation.
    With the anticipated arrival of a U.S. Agency for International Development (USAID) public
    affairs staffer, the public affairs officer (PAO) should conduct a broader outreach effort.

   The consular section has insufficient staff and facilities. The Department needs to provide
    additional support.

   Embassy Juba’s reliance on Embassy Khartoum for management support is not a viable
    strategy. The Department needs to establish alternative support systems.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where the OIG team did not identify problems that need to be corrected.

       The inspection took place in Washington, DC, between January 7 and 30, 2013, and in
Juba, South Sudan, between January 31 and February 16, 2013. (b) (6)

                                                                        conducted the inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
       About the size of Texas, South Sudan is the world’s newest country. South Sudan gained
independence on July 9, 2011, after being at war with Sudan for nearly 40 of the past 57 years.
The United States invested significant high-level energy and funding in the process that led to
South Sudan’s 2011 referendum and subsequent independence. The South Sudan Government
and people have a positive opinion of the United States for its role in their independence.
However, the country faces severe and long-standing security, economic, and development
challenges supplemented by worrisome government measures to restrict human and civil rights.

        South Sudan is among the world’s poorest countries. The literacy rate is 27 percent, and
half the population of 10.6 million is under the age of 18. The population of Juba has expanded
to 1 million, a tenfold increase over the past decade. Although South Sudan has substantial oil
reserves, exploitation requires trans-shipment of the crude oil to the Red Sea via Sudanese
pipelines. The economy has deteriorated since January 2012, when the government shut down oil
production as the result of disputes with Sudan. There is very little manufacturing or commercial
farming, and most products are imported. The country suffers from a severe shortage of foreign
currency. The United States and South Sudan have no significant bilateral trade.

        The United States is the largest bilateral donor to South Sudan, providing $632 million in
FY 2012. Since 2005, the United States has provided $10 billion in humanitarian, development,
peacekeeping, and reconstruction assistance to South Sudan and eastern Chad. In South Sudan
there are an estimated 212,000 refugees, 114,000 of them displaced, and since 2010, 691,000
returnees from Sudan. Fighting across the borders continues, resulting in new refugee flows.

        The embassy operates from a USAID office compound. Embassy employee housing is
mostly on a residential compound, about 500 yards from the office compound. The environment
is austere, with few opportunities for recreation. The chancery is of cinder block construction
(b) (5)



        The embassy, with 57 U.S. direct-hire employees, set a number of ambitious goals in its
2014 Mission Resource Request,1 including the elimination of conflicts in flashpoint areas.
Another focus is strengthening governance and improving essential services, such as health,
education, nutrition, water, and sanitation. Expansion of agricultural-based economic
opportunities is also a goal. The Mission Resource Request also focuses on security cooperation
that supports democratic institutions and regional stability. The embassy will cultivate
partnership with people and youth by informing them about American values and foreign policy.
Other goals are enhancing secure facilities for a growing U.S. Government presence in South
Sudan and establishing basic consular services to support U.S. citizens.




1
 In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
Resource Plan. The Mission Resource Request (3-year strategic plan, with shorter annual resource requests)
replaced the Mission Strategic and Resource Plan beginning with the FY 2014 budget cycle.
                                           2
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
Leadership

       The Ambassador, who arrived in December 2011, acquired expertise about South
Sudanese politics and society from her participation in the negotiation of the 2005
Comprehensive Peace Agreement with Sudan. She has strong contacts that she uses well.
Washington policymakers are generally pleased with her advocacy. The deputy chief of mission
(DCM) arrived in 2012 and focuses on management and security partly out of necessity, as the
management officer is not scheduled to arrive until March 2013. The DCM has a limited role in
coordinating and communicating policy objectives to the mission.

Rightsizing

        The embassy compound is too small and operates under waivers for a number of security
standards. The embassy cannot accommodate the personnel necessary to advance U.S. interests
effectively and to manage and monitor the $1.6 billion development program—the largest in
Africa. A recent USAID/South Sudan staffing review found the need for 27 new positions to
oversee programs properly. Staffing on the policy side is also insufficient to meet Washington’s
high demand. All reporting offices work long hours trying to keep up with questions from the
National Security Council Staff, S/USSESSS, the Department, and the Combatant Command for
Africa (AFRICOM).

        The current facility puts embassy employees at risk. The inability to add more staff
leaves assistance programs vulnerable to failure or misuse of funds. The Department has decided
to keep the mission with its current footprint until construction of a new embassy. It will be a
number of years, however, until the new embassy is ready. In the meantime, personnel and the
integrity of our programs are at risk. Earlier this year, an Interagency Security Assessment Team
visited the embassy and recommended security improvements. Even if these recommendations
are implemented, deficiencies will remain. The classified annex to this report contains
recommendations addressing these issues.

Policy Direction and Strategic Planning

        South Sudan and Sudan attract considerable U.S. Government attention, which has led to
the creation of S/USSESSS. High-level officials from the White House, National Security Staff,
Department of Defense (DOD), and other agencies are actively involved in U.S. policy toward
the two countries. S/USSESSS communicates policy to Embassy Juba, including decisions made
at weekly National Security Staff-chaired interagency meetings. Competing views exist on how
to foster the appropriate role of the South Sudan military in governance and the best way to
pursue U.S. human rights goals and their saliency in the policy mix. At times, AFRICOM
approaches Embassy Juba directly on policy matters, bypassing this National Security Staff-
chaired coordination process. The strong, activist role of S/USSESSS and other Washington
offices leaves little room for the Chief of Mission to exercise the role set out in 2 Foreign Affairs
Manual (FAM) 113.1 to represent U.S. interests in South Sudan. A number of embassy
employees do not know what activities to prioritize to achieve U.S. objectives; some expressed
concern their work duplicated efforts by S/USSESSS staff. Although the excellent working

                                        3
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

relationship of the outgoing Assistant Secretary for African Affairs and the departing Special
Envoy for Sudan and South Sudan (Special Envoy) improved relations between their
organizations, it is important for S/USSESSS and Embassy Juba to delineate more clearly their
respective responsibilities for implementing policy.

Recommendation 1: Embassy Juba, in coordination with the Office of the U.S. Special Envoy
for Sudan and South Sudan and the Bureau of African Affairs, should develop clear policy goals
and objectives to guide policy engagement. (Action: Embassy Juba, in coordination with
S/USSESSS and AF)

        In this Special Envoy-bilateral mission relationship, like others of its kind, there is
overlap of command and control between S/USSESSS and the embassy. The Department’s desks
for Sudan and South Sudan report to S/USSESSS, which works on Comprehensive Peace
Agreement implementation, other negotiations, and bilateral issues, such as human rights. There
is a notable difference in resources between the two entities, with S/USSESSS having 21
positions, some of which are contractors, and exceeding the combined size of the
political/economic and public diplomacy sections of Embassies Juba and Khartoum. The most
recent Special Envoy improved coordination with both embassies, but there remains a significant
overlap, and some gaps, in roles. S/USSESSS and the embassy are both heavily engaged in
advancing human rights. Despite its size, S/USSESSS does not provide Embassy Juba with the
full range of policy and program management support that Bureau of African Affairs offices
provide their posts. Embassy personnel feel that S/USSESSS is not actively engaged in shaping
donor conferences, providing policy guidance to address the looming economic crisis, or
supporting the full range of consular and public diplomacy activities. The Bureau of African
Affairs does not provide Embassy Juba this support either, deferring instead to S/USSESSS. The
Bureau of African Affairs does not have a deputy assistant secretary to coordinate South Sudan
and Sudan policy with broader bureau activities. Embassy officers also note unclear lines of
authority that result in frustrating duplication of effort and occasional conflict between
S/USSESSS guidance on bilateral issues and the Ambassador’s priorities. On March 15, 2012,
the Bureau of African Affairs approved an action memo that sets out the process for establishing
an Office of Sudanese Affairs within the Bureau of African Affairs, once certain conditions are
met. This positive step would reposition the Sudan and South Sudan desks to report directly to
the Bureau of African Affairs and lead to more effective U.S. foreign policy implementation.

Recommendation 2: The Bureau of African Affairs should fold the Sudan and South Sudan
desks back into the bureau, once the conditions in the March 15, 2012, memo are met. (Action:
AF)

       The S/USSESSS program office oversees programs funded at more than $10 million
annually. The office does not routinely coordinate its plans with USAID, other agencies in
Washington, and Embassy Juba before implementing them. As a result, the office cannot
determine whether a program is duplicative, would benefit from synergies with another program,
or needs to be coordinated with the Government of South Sudan in a certain way. For example,
the embassy had to arrange an urgent meeting with a minister who threatened to block a program
aimed at monetizing and regularizing the cattle industry, because the S/USSESSS implementer
had not seen the need to handle this coordination. In another case, the embassy had to arrange a
teleconference and seminar with South Sudanese officials when the implementer lacked the
capacity to make those arrangements. The program office has improved the flow of information,
                                      4
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

with some program contractors emailing reports to embassy staff. However, embassy staff
members still do not have ready access to all program status reports, which S/USSESSS does not
post on its SharePoint site. Lack of embassy input and coordination on planned projects
jeopardizes the success of U.S. foreign policy goals for this region.

Recommendation 3: The Office of the U.S. Special Envoy for Sudan and South Sudan, in
coordination with Embassy Juba, should implement procedures for obtaining embassy
concurrence on planned foreign assistance projects. (Action: S/USSESSS, in coordination with
Embassy Juba)

Tour of Duty

        When Consulate General Juba became an embassy in July 2011, the Department
specified that tours of duty would be unaccompanied and 1 year in duration, with two rest and
recuperation trips. The Ambassador has developed policies to increase time on the ground,
including a November 2012 policy setting a maximum of 33 days that an officer could be away
from post. Frequent absences due to illness further reduce time in the office. The 1-year tour of
duty has a number of negative consequences. Officers find it difficult to conduct policy advocacy
effectively, because it takes so long for them to learn their portfolios and establish personal
contacts with South Sudanese officials. They often do not have time to understand, oversee, and
shape foreign assistance programs. Frequent rotations also result in ineffective management of
locally employed (LE) staff, causing them to take less initiative due to shifting priorities.

Recommendation 4: The Bureau of Human Resources, in coordination with the Bureau of
African Affairs, should assign at least some incoming political/economic and public diplomacy
officers to Embassy Juba to 2-year assignments, with the first year in either the Bureau of
African Affairs or the Office of the Special Envoy for Sudan and South Sudan. (Action: DGHR,
in coordination with AF)

        The Ambassador has an unwritten, but broadly targeted, “normalization” policy to
expand the length of a tour of duty. Allowing eligible family members with employment offers
to accompany officers could increase morale, bidder numbers, and extensions. The OIG team
notes that the embassy will not need the proposed consular eligible family member position
when the vacant consular LE staff slot is filled and recognizes the importance of allowing
Embassy Juba some flexibility to alter job positions based on need.

Recommendation 5: The Bureau of Human Resources, in coordination with the Bureau of
African Affairs, should approve Embassy Juba’s FY 2014 Mission Resource Request for three
eligible family member positions. (Action: DGHR, in coordination with AF)

Entry-Level Officer Program

        There is no entry-level officer development program at Embassy Juba. The two entry-
level officers interact with the DCM on a regular basis, but there are no activities directed to their
long-term career development.

       Informal Recommendation 1: Embassy Juba should implement a plan for entry-level
       officer development.
                                        5
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Equal Employment Opportunity/Federal Women’s Program

        Four months ago, a visiting management officer from Khartoum asked the Juba
International Law Enforcement (INL) director, who had Equal Employment Opportunity (EEO)
training via a previous post, to be the Juba EEO counselor. Although she agreed, the Office of
Civil Rights never notified her officially, and so the embassy has been without an EEO counselor
for the past 4 months. There is also no formal EEO LE staff liaison because the individual who
volunteered, and who is a member of the LE staff organization, never received official
confirmation.

        No EEO material is posted anywhere in the embassy office buildings. The last
management notice on record concerning EEO issues is dated March 2012, when there was a
different EEO counselor and LE staff liaison. There is no EEO information on the embassy’s
SharePoint Web site. No one at the embassy, including the EEO counselor designate who has
been at the embassy for 17 months, could recall EEO issues being discussed at an embassy town
hall meeting. There is an Locally Employed Staff Handbook with a section on “Equality in the
Workplace” that underscores the mission’s responsibility for briefing all employees on EEO
issues.

        The invisibility of the EEO counselor at a post with many junior officers and new LE
staff members could account in part for the lack of EEO complaints. Local guard force personnel
indicated on questionnaires and interviews that they had been victims of tribalism, favoritism,
and other discrimination. Without the guidance of certified, trained personnel and ready access to
pertinent information, mission employees cannot resolve EEO issues and are vulnerable to
workplace discrimination.

Recommendation 6: Embassy Juba should contact the Office of Civil Rights to gain official
appointment of an Equal Employment Opportunity counselor. (Action: Embassy Juba)

       Informal Recommendation 2: Embassy Juba should, after the official appointment of an
       Equal Employment Opportunity counselor, post information concerning the Equal
       Employment Opportunity program on its SharePoint Web site.




                                       6
                          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Coordination and Communication

         Embassy Juba’s staff loses significant amounts of time because of inadequate
information-sharing systems. Although officers from different agencies frequently share
information on short-term activities, visits, and reports, this communication would yield greater
dividends if staff could devote more time to looking ahead, sharing analysis, and brainstorming.
This leap cannot happen without improving the embassy’s rudimentary information-sharing
systems. The embassy’s limited computer platform leaves officers tracking upcoming visitors
and reports on dry-erase whiteboards. Department-issued BlackBerry devices do not work in
South Sudan. There is no missionwide visitor or event calendar. Few employees use the embassy
SharePoint site, inaugurated in October. Instead, they email documents to one another, inevitably
missing some employees and spawning multiple requests for updates. After training by the
inspection team, the embassy started using shared Outlook calendars more effectively to
facilitate scheduling and began working on an Outlook calendar to track visitors and mission-
relevant events.

        The shared drive is a hodgepodge of folders with files arranged by idiosyncratic filing
systems, only one of which features Traffic Analysis by Geography and Subject.2 Staff members
rarely use files from previous officers and, when they try, are not sure they are using final
documents. Although the embassy has not yet attempted to archive records, it would be almost
impossible under these circumstances.

        The embassy does not have the necessary computer platform to support Department-
standard electronic administrative applications such as the WebPASS suite, the Visitor Access
program, the LE after-hours access request program, and the Contact Management Database.
Simple tasks thus consume inordinate amounts of time. For example, it takes a chain of five
emails to arrange access for a visitor or for LE staff to work after hours. When asked how they
track contacts, officers showed inspectors piles of business cards. These stacks are practically
meaningless without context, which officers lack because of complete turnover in American
staffing each summer. At the suggestion of the inspection team, the embassy requested that the
Frankfurt Regional Support Center and the Bureau of African Affairs install the Contact
Management Database during the March 2013 computer upgrade and provide training. The
inspection team suggested the embassy request Web-based installation instead of locally based
versions of the four software products if customer performance measurement permits.

Recommendation 7: The Bureau of African Affairs, in coordination with Embassy Juba, should
install and provide training on information-sharing systems, including SharePoint, contact
management, and records management systems, at Embassy Juba. (Action: AF, in coordination
with Embassy Juba)

Policy Advocacy and Reporting

        Given the importance of South Sudan to U.S. policy, Washington has a substantial
appetite for embassy reporting. The paucity of media increases policymakers’ and analysts’
2
    Standardized set of labels assigned to files to indicate their content and make them easy to locate and retrieve.
                                               7
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

reliance on embassy reporting. Washington consumers praised the embassy’s reporting, given its
staffing limitations and severe operating constraints. However, a number of consumers
recommended the embassy provide more analysis.

        The embassy faces a number of obstacles that impede increasing analytical reporting. In
addition to the 1-year tours, there is the confusion over U.S. policy and occasional conflicts
between ambassadorial and Washington priorities, described earlier. The embassy also lacks the
infrastructure to coordinate mission reporting effectively. There are no working groups to
integrate and track interagency policy and programmatic efforts to achieve mission objectives.
There is no active law enforcement working group. Although the public diplomacy and
political/economic sections both have notional reporting plans, the embassy does not have a
mission reporting plan, mission travel plan, or mission representational plan. Reporting officers
on 1-year tours have trouble making good contacts because so many officials already have strong
links with S/USSESSS and/or USAID. The political/economic section began convening weekly
interagency reporting meetings in January 2013 to solicit input from other sections and agencies.
However, some non-political/economic officers found the meetings overly focused on political
and economic issues. Creating an agenda on SharePoint to which all agencies can contribute and
focusing on specific topics would make these meetings more effective. Some of these meetings
could be dedicated to Mission Resource Request working group discussions.

Recommendation 8: Embassy Juba, in coordination with the Office of the U.S. Special Envoy
for Sudan and South Sudan, should develop a missionwide reporting plan. (Action: Embassy
Juba, in coordination with S/USSESSS)

       Informal Recommendation 3: Embassy Juba should establish working groups for each
       Mission Resource Request objective.

        Washington analysts called for increased data on conflict areas and refugees so that they
can better predict and report on humanitarian developments. The limited number of reporting
officers makes it unfeasible to report on this level of detail in cables. Embassy Juba and regional
staff include some of the information analysts need in informal media reports, emails, and
programmatic documents, including trip reports and contractor updates. The Bureau of
Intelligence and Research can advise the embassy on how to post this information to a content
management system like SharePoint to make it available to analysts. To prevent raw data from
being taken out of context, the embassy could note when analysts need to contact the originating
agency or section before using the data in a report.

       Informal Recommendation 4: Embassy Juba should start uploading informal reports on
       humanitarian developments to a content management system.

        The embassy faces significant operational hurdles to increasing reporting. As described in
the classified annex to this report, classified terminals are not in the chancery and are too few and
slow to meet the embassy’s needs. Washington analysts stressed that the embassy cannot shape
or participate in policy discussions effectively because of these limitations. In addition, Embassy
Juba’s inability to access the full range of reporting prevented staff from seeing important
information on South Sudanese officials that would have improved reporting and permitted more
efficient Leahy vetting.

                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The embassy can improve the timeliness of its reporting. The political/economic section
drafts cables quickly but does not always clear them with the public affairs section at the proper
time. The DCM recently required the section to clear reporting on media freedom, culture, and
higher education with the public affairs section and directed the public affairs section to clear
reporting on media freedom with the political/economic section. The Ambassador often takes a
few days to clear longer cables. At the OIG team’s suggestion, the Ambassador agreed to devote
a block of time each day to work on cables to speed their transmission. The team further
suggested that the Ambassador’s office management specialist track and prioritize cables the
Ambassador needs to clear so none fall through the cracks. Reporting officers agreed to begin
sending reporting in record emails to S/USSESSS and other offices to facilitate proper
distribution and archiving.

        The Ambassador and reporting officers are increasing advocacy efforts to address the
deterioration in the human rights and economic situation over the past year. Political/economic
officers’ position descriptions focus on reporting, and the OIG team counseled section
management on the need to update descriptions to reflect this shift in focus.

         The embassy has a biographic information coordinator, includes biographic information
in many of its cables, and has a few biographies saved on the shared drive. However, there is no
functioning central biographic file for information on foreign nationals, official or private, who
directly or indirectly influence domestic and foreign policy in their countries, as specified in 2
FAM 113.3 b. The inspection team suggested that the embassy develop a template and a
procedure for which biographic files each section and agency is responsible for updating and that
it post biographic files to Diplopedia to make them broadly available.

Recommendation 9: Embassy Juba should create a central biographic file that is accessible to
Department of State personnel. (Action: Embassy Juba)

         In 2011 the embassy converted its protocol specialist position to a human resources,
consular, and administrative assistant, making the political/economic officers and the sole LE
staff specialist responsible for scheduling meetings and performing other related protocol work.
Reestablishing the protocol specialist position would allow section staff to devote more time to
advocacy and reporting.

       Informal Recommendation 5: Embassy Juba should recreate a dedicated FSN-09
       protocol position and hire an experienced specialist with strong local contacts and
       English language skills.

        Embassy travel within South Sudan has decreased significantly since the change from a
single annual request for air travel to requests for individual charter flights for each trip. The
number of steps required to arrange and request each charter flight outstrips current staffing
resources, sometimes preventing necessary travel. This practice has had a particularly negative
effect on INL monitoring of projects outside Juba.

Recommendation 10: Embassy Juba should review the amount of in-country travel embassy
staff has performed since the embassy changed its practice on chartering planes, identify reasons
for the decrease, and adjust procedures as necessary. (Action: Embassy Juba)

                                        9
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Political/Economic and International Law Enforcement and Narcotics Sections

        The political/economic section has three full-time reporting officers, one part-time
officer, and one LE political specialist, and will soon recruit an LE economic specialist. The
section does not have adequate staffing to meet workload requirements and is not structured
properly. The INL section has one U.S. direct-hire employee and one LE staff member.

Workload

        There is insufficient political/economic staff to meet workload requirements. Officers
average more than 20 hours of overtime a week. The Bureau of Population, Refugees, and
Migration expects the Sudanese refugee influx to become a protracted refugee situation requiring
long-term, substantial funding. The bureau contributed more than $53 million for assistance to
Sudanese refugees in South Sudan and the region in FY 2012. The bureau therefore seeks greater
political/economic section engagement on refugee and other humanitarian issues from Embassy
Juba to complement the work of the regional refugee coordinator based in Addis Ababa. The
political/economic section cannot provide the desired level of engagement due to its short
staffing and relies heavily on USAID for information. The current staffing pattern lists a vacant
FS-02 political/economic position (number 10-125006) that the Bureau of African Affairs says
has been abolished, which the embassy could use to establish a new position. The inspection
report for Embassy Khartoum recommends transferring one excess position from Khartoum to
Juba, which would be another way to redistribute the workload and meet increasing reporting
demands.

Recommendation 11: Embassy Juba, in coordination with the Bureau of Human Resources and
the Bureau of African Affairs, should add one mid-level political/economic officer position to
increase reporting on refugee and other humanitarian issues by either creating a new position or
transferring a position from Embassy Khartoum. (Action: Embassy Juba, in coordination with
DGHR and AF)

Structure

         The combined political/economic section is not structured properly. In addition, the conal
designations of all four positions in the section are inaccurate on the staffing pattern, misleading
bidders about what their actual duties would be. Two FS-02 officers colead the section. Although
they work together harmoniously, previous incumbents did not. Upgrading FS-02
political/economic position number 10-004075 to FS-01 and making it solely political would
clarify supervisory relationships, give the section more depth of experience, and streamline
embassy operations by creating a less cumbersome management structure. Although the
section’s political workload is greater than its economic workload, the section has more staff
dedicated to economic issues. The human rights officer in FS-04 political position number 10-
004077 spends more than half his time on consular work, which the staffing pattern does not
reflect. To accommodate the unpredictability of both consular and human rights work in South
Sudan, it is important to shift the other half of the FS-04 position from political to economic. The
FS-03 political position (number 10-004076) could then revert to political, including human
rights, from its current economic portfolio. The FS-02 political officer position (number 14-
121002) could then be designated economic to reflect the position’s actual duties. The staffing
pattern includes FS-02 international officer general position number 10-125006, which the
                                       10
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Bureau of Africa Affairs said it abolished in 2012. Finally, although INL is a separate subsection,
it coordinates closely with the political/economic section. INL is not included in the morning
meeting of section and agency heads, and its staff members travel frequently. Making INL
formally part of the political/economic session could enhance reporting, advocacy, and
management.

Recommendation 12: The Bureau of African Affairs, in coordination with Embassy Juba and
the Bureau of Consular Affairs, should upgrade position 10-004075 to FS-01, make FS-04
position number 10-004077 economic/consular, make FS-02 position number 14-121002
economic, and remove FS-02 position 10-125006 from the staffing pattern. (Action: AF, in
coordination with Embassy Juba and CA)

Program Management

        Leahy Vetting: The embassy vetted more than 9,000 applicants in FY 2012; hundreds
were turned down initially. An S/USSESSS detailee worked closely with South Sudanese
officials and U.S. Government-supported contract advisors in the Sudan People’s Liberation
Army to get more information. Lack of detailed information on alleged human rights violations
greatly complicates Leahy vetting. For example, units that identified and mustered out child
soldiers have been disqualified, whereas units that did not are still eligible for training.

        INL Justice Sector Program: INL has a $29 million Justice Sector Program managed by
the INL U.S. direct-hire director and LE program director at Embassy Juba. INL Washington
helpfully performs almost all grant, contract, and financial management functions, a model
practice for this understaffed post. Grantees/contractors provide reports to the INL director, who
performs site visits as regularly as transportation arrangements permit. The director conducts
physical inventories of vehicles, tents, mosquito nets, and miscellaneous equipment when
possible; when these visits are not feasible due to staffing and transportation constraints, she
relies on verification by contractors and host-government counterparts. She is establishing a
more formalized end-use monitoring system. After the inspection team identified that the LE
staff member’s performance report did not have the proper review, the embassy worked with the
human resources office in Embassy Khartoum and remedied the oversight.

       President’s Emergency Plan for AIDS Relief: In FY 2012, the President’s Emergency
Plan for AIDS Relief (PEPFAR) funded $14 million in programs implemented by USAID, the
Centers for Disease Control and Prevention, and DOD. The USAID and Centers for Disease
Control and Prevention teams on the ground work cordially and hold weekly meetings. The
absence of political/economic section staff and nonresident DOD representatives in these
meetings reduces awareness of one another’s activities. The embassy could partially address this
through the new health working group. The embassy does not have a PEPFAR coordinator to
focus on the big picture. The OIG team suggested that the Office of the U.S. Global AIDS
Coordinator increase its strategic planning support to the PEPFAR team.

        Bureau of African Affairs-Managed Women, Peace, and Security Initiative Grants: The
FS-03 economic officer was the designated grants officer’s representative for one FY 2011 grant
and expected to be designated on a second grant, in the amounts of $200,000 and $700,000,
respectively. The economic officer agreed to take online grants training. In view of the section’s
limited staffing and 1-year tours, the Bureau of African Affairs concurred with the OIG team’s
                                       11
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

suggestion to designate a grants officer’s representative in Washington for the second grant
immediately and for the first grant after the economic officer departs post in summer 2013.

Public Diplomacy

        The public affairs section engages in a wide spectrum of activities. Though small—one
officer and two LE staff members—the section functions well in the face of numerous obstacles
relating to the newness of the embassy and the lack of established procedures. The shaky
economy and political situation add another element of uncertainty. The section’s primary
strength is the staff members’ perseverance.

        Other obstacles include lack of dedicated storage space. All financial matters, including
grants processing and procurement, are handled through Embassy Khartoum, causing delays and
occasional miscommunication. Officers on 1-year tours working with inexperienced LE staff
have difficulty developing contacts and maintaining program continuity. There is strong pressure
to contribute to embassy reporting requirements, taking time away from public diplomacy work.
The traditional one-stop desk officer who is responsible for South Sudan focuses on press
operations of S/USSESSS rather than on supporting embassy public diplomacy programs.

Need for Strategic Planning

         The PAO does not hold regular planning meetings with the Ambassador or the DCM, and
there is no mission public diplomacy strategy. Other than the daily “gaggle” in the Ambassador’s
office, which concentrates mostly on the agenda of the day, the only planning meeting is the
weekly extended political section meeting once a week on Fridays. That meeting does not lend
itself to an exchange of information on how the public affairs section can support mission
objectives.

Recommendation 13: Embassy Juba should draft a public affairs plan to address mission
priorities. (Action: Embassy Juba)

         The USAID mission has a budget of more than $600 million, but USAID public affairs
support is located in Washington. The Ambassador is an active promoter of USAID activities
and often opens projects for them. USAID has brought on board an LE staff member in public
affairs and is now in the process of hiring a documentation, outreach, and communications U.S.
direct hire. It is important for the PAO to think ahead about how best to coordinate her work and
that of the USAID documentation, outreach, and communications officer. As is, according to one
interviewee, “the man on the street has no idea that the United States is contributing more than
$600 million in assistance to South Sudan.”

Recommendation 14: Embassy Juba should draft a mission media plan for informing the South
Sudanese public of the extent of U.S. Government assistance and of the efforts of the embassy.
(Action: Embassy Juba)

Section Management

       Morale is high in the section. The two LE staff members say that the workload is fair,
especially now that a second local staff member is in place. They also indicate that there is esprit
                                        12
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

de corps among U.S. and LE staff members and virtually no anti-Americanism. However, the
position descriptions for both LE staff members lack sufficient specificity, stating simply that
they “serve as [the] PAO’s principal advisor on South Sudan’s media environment and on a wide
range of public policy issues.”

       Informal Recommendation 6: Embassy Juba should revise position descriptions for
       local employees in the public affairs section to define more accurately their cultural and
       information duties.

Grants Management

       Inexperienced LE staff and the continuing reliance on Embassy Khartoum for some tasks
have led to communications difficulties and incomplete grants files. Embassy Juba manages very
few grants, but no grants have been registered in the Grants Database Management System since
January 2012. Federal law requires that grants be registered in accordance with Grants Policy
Directive 21. Embassy Khartoum had been registering the grants but now assumes that Juba has
taken over. The PAO has no access to the Grants Database Management System.

Recommendation 15: Embassy Juba should update the registration of its grants to comply with
Federal law. (Action: Embassy Juba)

       Since the arrival of the current PAO, the public affairs section has written four grants.
The grants files lack certain documents, such as completed DS-4012 (Federal Assistance File)
forms, grants officer’s representative letters, final reports and accounting, and evidence of
monitoring and of compliance with dates of the grant. These documents are essential to the
proper expenditure and accounting of funds.

Recommendation 16: Embassy Juba should close all grants files with accurate and complete
documentation. (Action: Embassy Juba)

Cultural Affairs and Educational Exchanges

        The PAO uses a broad range of programs that demonstrate cultural sensitivity and
showcase culture in the United States in the best light. Lack of venues and partners for cultural
programs limits cultural programming, but the public affairs team has found innovative
solutions. They have organized sports diplomacy programs (including an exchange of basketball
coaches between the United States and South Sudan) and cultural groups such as Step Afrika,
who performed with art history students and undergraduates in the visual arts.

       Fulbright is the Department’s flagship graduate-level academic exchange program.
Previous PAOs decided that conditions were not suitable to undertake this important program in
South Sudan. The current PAO makes a convincing case for starting this program at any of four
universities in the country. The educational benefits of a Fulbright program in the developing
country of South Sudan justify further exploration of this option.

Recommendation 17: The Bureau of Educational and Cultural Affairs, in coordination with
Embassy Juba, should assess whether to establish a Fulbright program in South Sudan and, if
feasible, take such action. (Action: ECA, in coordination with Embassy Juba)
                                       13
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Regional English Language Office

        A regional English language officer (RELO) based in Dar es Salaam supports Embassy
Juba. The RELO covers 16 countries and was last in Juba in August 2011. The RELO report for
that visit recommended a followup visit at the end of FY 2011 or early in FY 2012, but
scheduling and visa difficulties have delayed a visit. The South Sudanese Government is eager to
improve literacy in general and English language usage in particular. The RELO’s support is
essential to achieving this goal.

Recommendation 18: The Bureau of Educational and Cultural Affairs should fund a visit to
Juba by the regional English language officer for South Sudan to do a needs analysis of English
language programs. (Action: ECA)

Regional Educational Advising Coordination

        A regional educational advising coordinator based in Accra supports Embassy Juba. The
coordinator supports post’s educational adviser, whose main task is to steer students toward
higher education in the United States. The regional educational advising coordinator has not
visited Juba, a necessary step to start an advising program.

Recommendation 19: The Bureau of Educational and Cultural Affairs should fund an initial
regional educational advising coordinator visit to South Sudan to conduct a needs analysis for
establishing an educational adviser position. (Action: ECA)

Broadcasting Board of Governors

        In May 2010, Voice of America launched a new program, “South Sudan in Focus.” This
radio program is supported by an allocation of $1.5 million of Department funding to the
Broadcasting Board of Governors (BBG) pursuant to an interagency agreement (IAA) under
section 632(b) of the Foreign Assistance Act of 1961.3 The IAA pays for a 30-minute FM radio
program that is broadcast by satellite to 13 affiliate stations in South Sudan 5 days per week. The
funds include training for South Sudanese journalists and town halls that focus on journalism and
freedom of speech issues. The stated objective of the IAA for FY 2013 is to build journalism
capacity in South Sudan while continuing to broadcast “South Sudan in Focus.” The Ambassador
has spoken at the training sessions and public events, but the project is not otherwise coordinated
with the embassy. BBG/Voice of America works with the Department in Juba and Washington
on capacity-building projects for media in South Sudan. The IAA also supports BBG’s 5-year
strategic plan, Impact through Innovation and Integration, goal 11, Spur Development through
Targeted Media Initiatives and Training. The current extension of the IAA will expire at the end
of FY 2013.

        In 2012, BBG pursued an option of installing FM radio transmitters at U.S. embassies to
reach local audiences in Africa. This option supports the BBG’s 5-year strategic plan, including
goal 3, Seize Target Growth Opportunities; goal 5, Rationalize Program Delivery; and goal 9,
Engage the World in Conversation about America. A BBG technical team installed a 1 kW radio
transmitter on the embassy residential compound grounds with an antenna placed atop a 90-foot

3
    22 U.S.C. 2392.
                                       14
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

tower. The transmitter will broadcast Voice of America programs in English to an estimated
population of 400,000 in the greater Juba area. BBG senior staff commented that placing the
transmitter and associated equipment on embassy property is cost effective and more secure than
building off compound. In June 2011, BBG acquired the necessary license from the Ministry of
Information that paved the way to serve the country in its two official languages, English and
Arabic, through affiliates as well as new stations to be built and programmed by the BBG. At the
time of the inspection, there were no immediate plans to broadcast in Arabic. BBG completed
radiation hazard studies and worked with the embassy so that there is no interference with any
embassy communications systems. The BBG FM transmitter became fully operational in Juba on
March 7, 2013.

Consular Affairs

        Embassy Juba began providing limited consular services in 2012. The consular section
processes only official nonimmigrant (A and G) visas, issues emergency passports, provides
notarial services, and accepts passport applications.

Consular Staffing

        One part-time entry-level officer on his first tour staffs the section. He has done an
outstanding job coping with the difficult environment and lack of consular infrastructure. His
position is 40 percent consular and 60 percent political, but he spends the majority of time on
consular issues. There is no consular LE staff, so the officer also serves as consular cashier and
prints visas and emergency passports. He does not have time to carry out regular consular
business, set up consular systems and resources from scratch, prepare the first-ever submissions
of the consular package and certification of consular management controls from Juba, and also
handle his political workload. Lack of adequate training and operational support has led to
deficiencies in internal controls and procedures.

Recommendation 20: The Bureau of Consular Affairs should send a temporary duty consular
officer to Embassy Juba to set up internal control systems and help prepare the consular package.
(Action: CA)

        As the sole consular officer at Embassy Juba, the entry-level officer is required to handle
consular internal controls and accountability issues for which the Department provided him only
limited training. To avoid serious consequences at post, it is essential that any sole consular
officer receive adequate training prior to beginning his or her assignment.

Recommendation 21: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should implement a policy requiring that any sole consular officer assigned to
Embassy Juba complete the Consular Section Chief Basics Course (PC 550) prior to beginning
the assignment. (Action: CA, in coordination with DGHR)

       Informal Recommendation 7: Embassy Juba should work with the Bureau of Consular
       Affairs to determine what additional job-related training the current consular officer
       should receive in the months remaining in his tour and to provide this training.


                                       15
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The embassy has not hired any consular LE staff, although it has begun advertising for a
position. The section cannot function adequately without a trained LE staff member to handle
scheduling, intake, printing, and translation. The consular officer does not have the experience or
time to train a new employee, so the individual will need to travel to a nearby post for training.
With that position filled, Embassy Juba will not need the consular eligible family member
position requested in its 2014 Mission Resource Request.

Recommendation 22: Embassy Juba should fill the consular locally employed staff position
without delay. (Action: Embassy Juba)

Recommendation 23: The Bureau of Consular Affairs should provide funding for any new
consular local employee to travel to a post neighboring Juba for training. (Action: CA)

Consular Facilities and Workload

        There is no office space available for a consular work area and no consular hard line or
interview area. Consular space consists of a 9 x 7 foot storage closet that opens directly off the
embassy cafeteria. The “consular closet” contains a workstation with consular peripheral
equipment, an Automated Cash Register System machine, and a two-drawer safe holding all
consular controlled items. The power connections are so limited that the officer cannot have the
document printer and passport laminator plugged in at the same time.

        The local protocol assistant runs a rudimentary appointment system and assists with
intake on the one morning a week the section provides normal consular services. Members of the
public seeking consular services enter the compound access control building and sit in the
entryway on a wooden bench. The officer stands in the guard’s work area and speaks to the
individuals through a window with a deal tray. The absence of a microphone makes it difficult to
conduct conversations, especially with the noise from other persons entering the compound
access control building and the guards in their working area conducting radio and telephone
conversations. There is no privacy, as other visitors are passing immediately by the consular
applicants. The embassy has put up a curtain to shield applicants, but this visual barrier does not
prevent others from overhearing their conversations. In sensitive cases, guards clear the applicant
through security, and the consular officer meets him or her outside for a face-to-face
conversation. These conditions will not improve until construction of a new embassy building.
The Bureau of Consular Affairs has agreed to fund a microphone system, but the embassy has
not procured the equipment.

Recommendation 24: Embassy Juba, in coordination with the Bureau of Consular Affairs,
should order and install a microphone system for the consular interview window. (Action:
Embassy Juba, in coordination with CA)

        Standard measurements of consular productivity do not apply in Juba. After the officer
has collected documents and any fees from the applicant, he walks across the compound to the
consular workspace, deposits the fee in the Automated Cash Register System machine, and
processes the case. He then walks back to the compound access control building and delivers the
materials to the applicant. This process is awkward and more time consuming than similar
services would be in a more traditional section. The consular section has dealt with several
complex high-profile cases in recent months, including an arrest case involving an American
                                       16
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

citizen with serious medical issues, which generated significant congressional interest; a death
case in a remote part of the country; a medical evacuation of a patient on the verge of death; and
a number of arrest cases. The lack of basic transportation and communication infrastructure and
the limited capacity of the newly installed government make Juba one of the most challenging
environments in the world for consular work.

Consular Procedures

        The Sudan People’s Liberation Movement is the ruling party in South Sudan. Members
of the party and its military wing, the Sudan People’s Liberation Army, are subject to possible
visa ineligibility under Section 212(a)(3)(B) of the Immigration and Nationality Act. It does not
appear that Embassy Juba, and possibly other posts handling visa applications from members of
these organizations, have been processing these applications correctly by finding them ineligible
under Section 212(a)(3)(B) and then seeking appropriate waivers. The Bureau of Consular
Affairs had not noticed this problem until the OIG team pointed it out.

Recommendation 25: The Bureau of Consular Affairs should provide Embassy Juba and other
posts in the region with front-channel guidance on processing visa applications from the Sudan
People’s Liberation Movement and the Sudan People’s Liberation Army and update the South
Sudan reciprocity schedule with this guidance. (Action: CA)

        In the past, Embassy Juba accepted applications and collected fees for Consular Reports
of Birth Abroad and then sent the documents and cash to Embassy Khartoum for processing. In
May 2012, the Bureau of Consular Affairs instructed Embassies Juba and Khartoum to cease this
practice. Embassy Khartoum returned to Embassy Juba 13 files containing Consular Reports of
Birth Abroad applications. Those files are still with Embassy Juba. The applicants had paid fees,
but because Embassy Juba does not process applications for Consular Reports of Birth Abroad, it
cannot take further action on the cases. Embassy Juba could either forward these cases to another
post or return the documents and refund fees to the applicants so that they can apply elsewhere.

       Informal Recommendation 8: Embassy Juba should seek guidance from the Bureau of
       Consular Affairs as to how to dispose of the 13 pending Consular Report of Birth Abroad
       files.

        Embassy Juba processes only A and G nonimmigrant visas. Referrals for other visa
categories go to Embassy Nairobi under a memorandum of understanding between the two
embassies. There is a history of misunderstandings, missed travel, and recriminations between
them, however. Embassy Juba has not always understood the requirements of the referral
program and visa policy and appears to have attempted to intervene inappropriately in some visa
cases. Embassy Nairobi has not always displayed an understanding of conditions in South Sudan.
On a related issue, Embassy Juba has not issued an embassy notice explaining the Department’s
visa referral policy. Better communication and understanding between the two embassies would
foster team spirit, clarify points of policy, and improve operational efficiency.

Recommendation 26: The Bureau of Consular Affairs should provide funding for an annual trip
to Juba by the Nairobi consul general or other consular manager. (Action: CA)


                                       17
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 9: Embassy Juba should publish an embassy notice
containing written guidance about the referral policy.




                             18
                SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Resource Management
                   Agency                        U.S.            U.S.          Foreign Total                Total
                                                Direct-         Local-         National Staff              Funding
                                               Hire Staff      Hire Staff       Staff                      FY 2012
Department
Diplomatic and Consular Programs                         10                               3      13          $728,400
  1
   ICASS                                                  1                               2       3                $0
   Public Diplomacy                                       1                               2       3          $254,900
   Representation                                                                                 0           $19,200
  2
    Diplomatic Security                                    2                          156       158                $0
   INL                                                     1                            1         2          $491,000
  3
    Consular                                                                            1         1                $0
DOD
   Defense Attaché Office                                  1                                       1           $4,700
   Office of Defense Cooperation                           1                                       1          $40,000
Centers for Disease Control and                            1                              4        5         $335,600
Prevention
4
  USAID                                                  39                           105       144 $370,680,779
Totals                                                   57                0          274       331 $372,554,579
1
  Funded under Khartoum ICASS; no separate funding.
2
  Funded under Khartoum diplomatic security; no separate funding.
3
  New position established in FY 2013.
4
  Staff includes 24 U.S. direct hires, 7 U.S. personal services contracts, and 8 third country national personal services
contracts.

       Embassy Juba faces serious challenges providing management support for diplomatic and
development assistance programs. Inadequate facilities and ineffective International Cooperative
Administrative Support Services (ICASS) are major hindrances.

         (b) (5)                    facilities adversely affects staffing levels, program oversight,
normalization of tours of duty, and presence of EFMs. The Department has postponed
construction of a new embassy compound (NEC) pending acquisition of a suitable building site.
The NEC, originally planned for FY 2013, now is scheduled for FY 2018. Post-Benghazi
security concerns have frozen plans for an interim office building that would alleviate space
shortages until completion of the NEC. The potential move of the capital from Juba, though
deemed by many to be improbable, is also a variable in the NEC equation. In the meantime,
office facilities are insufficient to accommodate necessary personnel and their functions, with no
relief in sight short of the NEC. Although many employees work in 3.1-square-meter cubicles,
the Office of Management Policy, Rightsizing, and Innovation’s January 2012 rightsizing review
projects the addition of 79 desk positions by 2016.

        The Department must consider office facilities in the context of many critical and often
competing factors, including managing risk at high-threat posts, implementing and achieving
important foreign policy objectives, providing safe and secure facilities in difficult operating
environments, and overseeing annual foreign assistance that in FY 2012 totaled $632 million. A
NEC is the long-term solution. In the meantime, the status quo places the embassy in a losing
position with regard to the factors listed above. A decision on whether and how to provide
                                                  19
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

additional office facilities pending completion of a NEC is key. Unless and until Washington
makes that decision, the embassy cannot tailor its management platform to match any ensuing
change in mission parameters.

Recommendation 27: The Bureau of African Affairs, in coordination with the Bureau of
Diplomatic Security and the Bureau of Overseas Buildings Operations, should complete a
risk/cost/benefit analysis that yields a decision on the question of constructing an interim office
building pending completion of a new embassy compound in Juba. (Action: AF, in coordination
with DS and OBO)

       ICASS services affect embassy operations and morale. USAID provides basic life
support ICASS services, which are generally adequate. Embassy Khartoum provides the
remaining ICASS services, but that relationship is ill defined and poorly executed, resulting in
inadequate services to Juba and dissatisfaction on both sides. An uneasy relationship has
worsened over time, particularly as Embassy Khartoum has operated since September 2012 in
ordered departure status with minimal management staffing.

         There is no matrix or clear definition of services that Khartoum should provide Juba.
There are no defined processes for basic tasks, such as filing for medical reimbursements or
requesting procurement of goods and services. There is no ownership on the part of Khartoum
for its obligations to Juba. Instead, there is miscommunication, mistrust, and blame for
breakdowns in support. For its part, Embassy Juba has not had a Department officer who could
coordinate with ICASS service providers and focus on management policies and programs.

        An officer is scheduled to arrive in March 2013 to fill a newly established management
position. Position priorities include repairing basic processes, such as medical reimbursements
and simple procurement, and drafting a long-term plan for the provision of ICASS services.
Transition of ICASS services from USAID to a Department provider will be particularly difficult
to plan, as the timing is unclear. The Bureau of African Affairs intends to establish three ICASS
positions in FY 2014. Other indications are that transition is tied to construction of the NEC. For
the time being, space constraints and the operating environment argue for continued use of
remote support services.

        The Bureau of African Affairs has considered various options to shift administrative
support from Embassy Khartoum to another post but has deferred action until the new
management officer’s arrival. Any arrangement will depend on clear and enforced roles,
responsibilities, accountability, and processes for services outsourced to another post. Also key
will be the servicing post’s ability to take ownership of the support platform and be involved in
and work collaboratively with Embassy Juba to define systems and processes and ensure they
work. A memorandum of understanding is also important to document the relationship and
deliverables, including the number and frequency of site visits.

Recommendation 28: The Bureau of African Affairs, in coordination with Embassy Juba,
should implement immediate and transitional plans for provision of International Cooperative
and Administrative Support Services to Embassy Juba. (Action: AF, in coordination with
Embassy Juba)


                                       20
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

        Another area requiring improvement is communication of management information. The
embassy is building a SharePoint site and beginning to use it to disseminate information.
SharePoint and other electronic tools allow outreach to American and LE staff. However,
SharePoint is not available to all embassy employees. For example, most local guards do not
have access to OpenNet Plus and thus cannot access SharePoint. In this and related areas,
embassy leadership has not exercised sufficient oversight. The embassy’s failure to announce
beforehand the visit of the human resources officer so that employees could take advantage of
his rare presence at post provides yet another example.

Recommendation 29: Embassy Juba should implement procedures to disseminate management
information to staff in a timely manner. (Action: Embassy Juba)

Financial Management

       Embassy Khartoum provides financial management services to Embassy Juba, including
processing vouchers and allotment accounting for program, ICASS, representation, and public
diplomacy. Financial management services scored a low 2.64 out of 5 on the OIG Workplace
and Quality of Life questionnaire. Vouchering payments through Embassy Khartoum takes time
and results in occasional delays, especially for LE staff medical and bank fee reimbursements.
Some employees also complained of delays in processing travel vouchers.

Cashier Operations

         The only financial management staff member at Embassy Juba is the principal Class B
cashier, who took over from the USAID cashier in October 2012. His current accountability is
(b) (5)    , which includes a temporary increase of (b) (5)    The cashier is doing a
commendable job considering the difficulties in obtaining U.S. dollars and even local currency.
An OIG inspector observed a cash verification, which showed the cashier in balance. However, a
large number of accommodation exchange receipts, payments, deposits, and vouchers in transit
dated as far back as August 2012. The cash verification officer had to go through hundreds of
documents to verify the in-transit status of various items. The designated financial management
assistant had not cleared these items in the cashier system, and there were errors in accounting
data. The embassy has designated a new financial management assistant, the USAID controller,
who has begun clearing most of these items. Embassy Khartoum is working on correcting fund
cites to allow processing of the vouchers in question. The information management officer is
currently the designated cash verification officer. The management officer, who is due to arrive
in March 2013, may take over that function.

Availability of Hard Currency

        South Sudan’s shortage of hard currency has affected the ability of the U.S. disbursing
officer bank, the Commercial Bank of Ethiopia, to provide U.S. dollars to the embassy. Most
dollar payments are for accommodation exchange for travel outside South Sudan, LE staff travel
advances, travel vouchers, and LE staff bank fees and medical reimbursements. The embassy is
seeking a possible solution in coordination with a DOD finance unit based in Uganda and the
U.S. disbursing officer at Global Financial Services in Charleston. The OIG team supports this
effort.

                                      21
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Banking Services for Locally Employed Staff Salaries

        The embassy is trying to change the bank into which LE staff pay is deposited. The
current bank charges 10 percent for deposits as well as fees for withdrawals. The embassy
reimburses individual employees for the deposit fee, which is a time-consuming and labor-
intensive activity for the local guard force clerk, the Class B cashier, and Embassy Khartoum.
The embassy intends to establish an agreement with a different bank that details specific terms
and conditions, including bank charges payable by the embassy rather than by individual
employees, and that provides for a teller and an automated teller machine at the embassy. A new
agreement was pending at the time of the inspection. The OIG team supports this initiative,
which should streamline salary deposits and reduce time spent on fee reimbursements.

U.S. Agency for International Development Cashier Closeout

        The USAID Class B cashier, who was accountable to the Embassy Khartoum financial
management officer, ceased operations on October 1, 2012; however, about (b) (5) remains in
accountability that must be settled before it can be closed out. Outstanding interim advances and
receipts for approximately (b) (5) also must be settled, along with bank fees charged by the
Kenya Commercial Bank. The plan is to turn over the remaining funds, cashier
receipts, and charges for bank fees of (b) (5) to the Department cashier, complete with
documentation, to settle the account with the U.S. disbursing officer.

        Per 4 Foreign Affairs Handbook (FAH)-3 H-398.1-2, when there is a permanent change
of cashiers, the financial management officer at the servicing post should submit a memorandum
for the record, which includes specific information about the outgoing and incoming cashier and
any notes on outstanding discrepancies. Once funds and documentation are transferred to the
new cashier, the principal officer of the embassy designates in writing two employees, one a U.S.
citizen, to verify the cashier’s funds. One person must be a U.S. citizen direct-hire officer,
preferably trained in cashier operations. All of the verification requirements of 4 FAH-3 H-397.1
must be performed and documented at the time of the transfer.

Recommendation 30: Embassy Juba, in coordination with the Bureau of the Comptroller and
Global Financial Services and Embassy Khartoum, should reconcile the U.S. Agency for
International Development cashier accountability and close out the account with the U.S.
disbursing officer. (Action: Embassy Juba, in coordination with CGFS and Embassy Khartoum)

Alternate Cashier

        There is no designated alternate cashier to the principal Class B cashier as required per 4
FAH-3 H-398.1-1. The alternate must have an advance sufficient to last at least 5 workdays,
which is to be safeguarded properly at all times for use during unanticipated brief absences of the
Class B cashier. For a planned temporary absence of less than 5 workdays, the Class B cashier
issues an additional temporary advance to the alternate in an amount estimated to be sufficient
for continuous cashier operations during the Class B cashier’s absence.

       Informal Recommendation 10: Embassy Juba should designate an alternate cashier and
       issue a cash advance.

                                       22
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The embassy makes payments exceeding $500 without the necessary approval as an
emergency payment. Per 4 FAH-3 H394.1-2 b., a cash payment should not exceed $500, except
in the case of a bona fide emergency. The embassy has requested an extension of the waiver to
the $500 limitation on cash payments because South Sudan is a cash economy and many
payments require cash. The DCM is designated to approve emergency cash payments over $500.
However, there is no signature approving such payments on a sampling of vouchers. In addition,
the cashier is required to have an emergency payment stamp affixed to the voucher to be signed
by the authorized official. By adhering to this procedure, the embassy will limit payments over
$500 only to actual emergencies.

       Informal Recommendation 11: Embassy Juba should affix an emergency payment
       stamp to any payments exceeding $500 and have the deputy chief of mission sign them
       before disbursement

Representation Allowance

        Embassy Juba lacks a representation program as required by 3 FAM 3246, which calls
for a post-specific policy for the use of representation funds that is consistent with mission goals
and objectives. Such a plan would facilitate the allocation of funds to various sections of the
mission. The embassy has not established a procedure for reimbursing expenses for various types
of entertainment or dollar limits for various types of representation activities. This plan is
especially important given limited representation funds.

       Informal Recommendation 12: Embassy Juba should implement a representation plan
       based on promoting mission goals and objectives and prepare an allotment of funds that
       the chief of mission can allocate to embassy sections.

       Informal Recommendation 13: Embassy Juba should issue a management notice
       describing procedures for submitting representation claims and establishing per capita
       limits for various types of entertainment.

U.S. Dollar Accommodation Exchange

        An OIG inspector noted numerous accommodation exchange transactions in U.S. dollar
Treasury checks that represented proceeds from the Defined Contribution Plan for retirement
paid to locally resident retired USAID employees. Per 4 FAH-3 H-391.1, such payments should
be made by electronic funds transfer or other noncash mechanism. However, the shortage of hard
currency in South Sudan argues for continuation of the payments until the economy and banking
system stabilize and hard currency is more consistently available. In the meantime, the payments
increase the cashier’s workload, cash advance, and associated risk. The team counseled the
embassy on the need to monitor and reevaluate the payments and cease them when appropriate.

Human Resources

        Embassy Khartoum provides human resources services in Juba. Most authorized
positions (156 of 165 for the Department) are local guards hired under personal services
agreements by Embassy Khartoum. Juba employees complain of lack of support and express
mistrust of the human resources staff in Khartoum. An experienced human resources officer has
                                       23
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

visited Juba only twice during his tenure, the last time in July 2012 in conjunction with a survey
conducted by the Office of Overseas Employment. The services that the Embassy Khartoum
human resources unit provide receive mixed reviews. On the OIG Workplace and Quality of Life
questionnaire, the human resources unit scored a 2.43 out of 5 for both American and LE staff.

Locally Employed Staff

        Constrained by a shortage of office space and hindered by a slow hiring process,
Embassy Juba has not added enough local employees to meet its needs. Instead, it has created
some mixed positions that carry disparate responsibilities. As a result, some LE staff members
have assumed duties that are unworkable. One employee, for example, performs a combination
of key protocol, consular, and timekeeper duties. Optimum employee performance depends on
clearly defined work functions and capabilities and on a rational staffing pattern with the right
number of appropriately qualified employees.

Recommendation 31: Embassy Juba should implement a plan to align locally employed staff
positions and functions, update and classify job descriptions as needed, assess workload, and
establish a rational staffing pattern that meets mission requirements. (Action: Embassy Juba)

Local Compensation Plan

        Embassy Juba employees fall under the Embassy Khartoum local compensation plan and
consequently receive the same salaries and benefits as employees in Khartoum. In July 2012 the
Bureau of Human Resources, Office of Overseas Employment conducted a salary and benefits
survey of local comparators in Juba as part of its development of a separate compensation plan.
The comparators represented a small sample of international organizations in South Sudan.
Survey results reflected lower salary levels and differences in allowances paid in Juba compared
to Khartoum. When this plan is implemented, current employees will be paid according to the
new, lower salary schedule but will also receive a Temporary Schedule Revision Allowance to
make up the difference. New employees will receive the new base salary rate and benefits. Once
the Office of Overseas Employment prepares the local leave plan, the new local compensation
plan for Juba will be complete. The differences in payments to existing and new employees will
likely present management challenges. The OIG team emphasized to embassy management the
need for transparency and communication with LE staff throughout the process.

Medical Insurance Plan

        The Office of Overseas Employment has completed the medical plan portion of the local
compensation plan for Embassy Juba. The embassy’s Foreign Service National committee
identified lack of a medical insurance plan as a major concern. LE staff complained about the
problems with coverage and the time-consuming process of obtaining reimbursement for medical
expenses. The committee emphasized to inspectors the need for a comprehensive insurance
program that covers health care provided in Uganda and Kenya, as many of the employees’
families live outside South Sudan. At the time of the inspection, Embassy Khartoum’s general
services office was preparing to issue a solicitation for a medical insurance plan for Embassy
Juba.


                                       24
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Time and Attendance Reporting

        Time and attendance reporting is inefficient, time consuming, and lacks adequate
management controls. The process now goes through Embassy Khartoum. Eliminating Embassy
Khartoum from the chain would remove the need to scan and email timesheets to Khartoum and
would allow employees to submit timesheets later in the pay period and reduce the number of
corrections subsequently necessary to reflect actual hours worked. Creation and review of
summary reports of time and attendance would improve internal controls. Finally, access to
Windows Time and Attendance would allow direct reporting of time and attendance and
automate some steps that the embassy now performs manually. These improvements would bring
post more in compliance with 4 FAH-3 H-526, which governs time and attendance and leave
reporting procedures and designation of timekeepers. In short, direct reporting from Embassy
Juba would be more efficient and timely.

Recommendation 32: Embassy Juba, in coordination with the Bureau of the Comptroller and
Global Financial Services and Embassy Khartoum, should implement a plan for training the
main timekeeper in Juba and installing the Windows Time and Attendance program to allow
Juba to report time and attendance directly to the payroll office, eliminating the need to go
through Embassy Khartoum. (Action: Embassy Juba, in coordination with CGFS and Embassy
Khartoum)

Embassy Awards Program

         The presentation of awards provides an opportunity for supervisors to demonstrate their
high regard and appreciation for employee contributions. The embassy for its part has issued 10
awards, mostly in the Extra Mile category, during the past year but has not held a formal awards
ceremony in more than a year and a half. This approach does little to encourage supervisors to
recognize performance through awards and has a negative effect on morale. Department
guidance in 3 FAH-1 H-4815 on the presentation of awards specifies that award ceremonies
should be held as soon as practicable after the approval of nominees and that a senior embassy
official should present the awards.

Recommendation 33: Embassy Juba should carry out an awards program that complies with
Department of State regulations and hold awards ceremonies twice a year, as prescribed in the
locally employed staff handbook. (Action: Embassy Juba)

Training Plan

         There is no systematic training program and very few training opportunities for Embassy
Juba employees. Department regulation 3 FAH-2 H-312 a. (7) mandates establishing and
maintaining training programs to enable employees to meet their work requirements and to
develop career potential. The Mission Sudan training policy developed by the human resources
office in Khartoum has not been adapted or disseminated to American and LE staff in Juba. A
training plan would allow the embassy to plan efficiently for proper employee development. In
addition, creating individual development plans for each employee would allow managers and
staff to improve employee job skills.


                                       25
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 34: Embassy Juba should implement a staff training plan. (Action: Embassy
Juba)

Post Orientation Program for American and Locally Employed Staff

       There is no formal orientation program for new American and LE staff. At present,
employees receive only forms to complete and a copy of the Locally Employed Staff Handbook.
They are not briefed on mission goals and objectives or activities and operations of the embassy.

        According to 3 FAM 7244, all new LE staff members should be given assistance in
adjusting to their employment and advised fully regarding the conditions of mission employment
by means of a planned orientation program. They should receive this orientation as an integral
part of the appointment process.

        Newly arrived American employees simply receive a check-in sheet and find their way
around some, but not all, of the various offices. Ideally, in accordance with 2 FAM 113.7-4, the
community liaison office coordinator is responsible for organizing employee orientations. If
there is no community liaison office coordinator, as in Juba, the embassy should arrange for
another staff member to provide employee orientations.

       Informal Recommendation 14: Embassy Juba should implement an orientation program
       for newly arrived Americans and recently appointed locally employed staff.

General Services

Supply Chain Management

        Embassy Juba’s supply chain management system relies largely on Embassy Khartoum,
particularly for procurement and financial management. Only four Embassy Juba employees
have the Integrated Logistics Management System access necessary to submit purchase requests.
Other employees are untrained on the system and/or unaware of it. USAID is also involved in the
process, as it receives goods and transfers them to the ordering office, but the USAID clerk does
not have access to the Integrated Logistics Management System to view purchases that are
destined for Juba. He instead depends on information emailed to him by the Embassy Khartoum
procurement unit. Customers complained of the difficulty in ordering simple items, the lack of
feedback during the process, and the time the process takes. Frequent turnover of personnel, the
limited number of users trained in the Integrated Logistics Management System, and the lack of
personnel assigned to track procurements hinder the smooth, timely, and consistent functioning
of the supply chain management system. The system is not defined or transparent to those
involved and does not function well, making goods vulnerable to loss or theft.

Recommendation 35: Embassy Juba, in coordination with the Bureau of African Affairs, should
define its supply chain management system, including ordering, receiving, shipping, paying, and
controlling, and define and enforce responsibilities, accountability, and internal controls.
(Action: Embassy Juba, in coordination with AF)




                                       26
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Motor Pool Operations

        USAID provides motor pool support to Embassy Juba, but the Ambassador retains
responsibility in accordance with 14 FAM 432.5 for countrywide policies regarding business and
other authorized use of vehicles. This service is especially important in Juba, where the motor
pool is the sole source of motor transportation, as the embassy does not allow personally owned
vehicles or the use of public transportation. The embassy has not documented its motor vehicle
policy in a memorandum and provided uniform, fair, and equitable service among personnel. A
comprehensive policy and standard operating procedures would specify priorities, standards, and
practices, thereby clarifying expectations for customers and motor pool personnel.

Recommendation 36: Embassy Juba should implement a motor vehicle policy in accordance
with Department of State regulations. (Action: Embassy Juba)

       Reporting and program staff have been unable to travel efficiently. They have missed
important meetings in Juba because a motor pool driver was unavailable. Because of a driver
shortage, embassy policy is not to have drivers wait for officers when they are engaged in off-
compound meetings. This policy results in a wait of 30 minutes or longer for pickup, reducing
productivity. The embassy is hiring additional drivers, which should help resolve this problem.

        Motor pool drivers work 8 hours a day, 6 days a week. A review of time and attendance
records indicates numerous instances in which driver shifts exceed 10 hours, which violates
Department policy and poses a safety risk to drivers and passengers. During one pay period, 7
drivers exceeded 10-hour shifts 21 times. On four occasions, driver shifts exceeded 20 hours.
USAID, which provides motor pool services, recently hired three motor pool employees and
expressed intent to hire as many as five more. This staffing increase should reduce the motor
pool workload and allow scheduling that will reduce, if not eliminate, the number of driver shifts
that exceed 10 consecutive hours. Embassy Juba is responsible for complying with the 10-hour
rule.

Recommendation 37: Embassy Juba should implement a plan that limits drivers to 10-hour
shifts, in compliance with Department of State regulations. (Action: Embassy Juba)

Facilities

        USAID provides most facilities management support of nonresidential and residential
properties, outsourcing much of it to a contractor, Africa Expeditions. The Department pays for
the services it receives via an ICASS invoice. The staff residential units are modular containers
and are adequate.

       The controlled access area workspace lacks adequate thermostatic controls, resulting in a
constant temperature of about 55 degrees Fahrenheit. Employees are unable to work effectively
under those conditions for any length of time, even when wearing heavy clothing.

Recommendation 38: The Bureau of Overseas Buildings Operations should repair the heating,
ventilation, and air conditioning system in the Embassy Juba controlled access area. (Action:
OBO)

                                       27
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Fire Protection, Safety, Health, and Environmental Management

        Aspects of Embassy Juba’s fire protection and safety, health, and environmental
management programs are in place and working. Bureau of Overseas Buildings Operations
specialists paid assessment and assistance visits to Juba in December 2008 and February 2012. A
recently arrived USAID officer has assumed responsibilities as the post occupational safety and
health officer. An LE maintenance supervisor assists him and has the requisite training. Survey
information from the Bureau of Overseas Buildings Operations indicated progress in mitigating
deficiencies noted in its assessment reports.

         The OIG team noted insufficient front office involvement in the overall safety program.
In accordance with 15 FAM 933, the embassy established a safety, health, and environmental
management committee, but it has yet to meet despite the 15 FAM 933.2 a. requirement to do so
at least semiannually. The embassy also does not comply with the 15 FAM 957.3 requirement to
implement a motor vehicle safety management program. For example, it does not have a driver
safety training program, such as the Department-standard Smith System or other approved
method. The operating environment in Juba, shortage of adequate medical facilities, and limited
medical evacuation capabilities increase the importance of safety and health programs.

Recommendation 39: Embassy Juba should implement a safety, health, and environmental
management program in accordance with Department of State regulations. (Action: Embassy
Juba)

         Some employees questioned the safety of a specific airline that the embassy uses for
official travel. The OIG team could not substantiate the basis for the concerns, but an inspector
advised the USAID executive officer and the embassy’s acting management officer of the correct
process, should the embassy seek to prohibit flying on a specific airline.

Information Management

        The information management section works under difficult conditions to meet the
embassy’s computer needs. For the most part, the section is successful. A small staff, severe
space limitations, poor local communications infrastructure, and regular power fluctuations that
cause equipment damage hinder staff’s ability to provide quality service. In this environment, the
section provides adequate computer support to a continuous flow of short-term visitors and a
permanent staff with significant reporting requirements. The two-person information
management section coordinates well with other offices, and the embassy benefits from their
advanced technical skills.

        Information management staff is responsible for two computer networks, user support,
account management for approximately 105 users, and the radio and Department cell phone
programs. One experienced officer, who shares tasks with one LE staff computer operator,
manages the information management section. The two-person section is professional and
competent. However, because the workload is ample for two people, the embassy often requests
temporary assistance from the regional bureau when one of the employees takes leave or attends
training.


                                       28
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        USAID operates a separate network that is not attached to Department networks. The
information management office has no oversight of the USAID network or its computer
technicians. The embassy’s emergency communications systems are in good working order and
tested in accordance with Department standards. Spares inventories are minimal, due to space
limitations and a local policy to minimize emergency destruction times. USAID manages
telephone and pouch mail programs, which are normally under information management’s
purview. Juba’s first Global Information Technology Modernization installation, scheduled for
March 2013, will replace the current expeditionary pack of servers and provide the unclassified
network with new servers, switches, and cabling.

Network Performance

        Embassy Juba has a small controlled access area with three workstations. The room
serves approximately 26 network users plus a handful of visitors at any given time. A sluggish
network with long download times is sometimes impracticable, particularly for visitors who
attempt to access their home accounts. Timeouts occur regularly, and data exchange is
sometimes difficult. Members of the OIG team observed first hand the slow network, waiting 3
minutes for a page download in one instance. The Ambassador and others have commented on
the lack of quick, secure, and reliable communications.

        According to 1 FAM 275.1-2, the Bureau of Information Resource Management (IRM) is
responsible for ensuring the reliable operations and performance of classified and unclassified
Internet-working systems and network services. The OIG team observed that Embassy Juba’s
network performance is still not adequate, despite emails and telephone correspondence among
the embassy, the Bureau of African Affairs, and IRM that have contributed to only slight
improvements over time. The OIG team confirmed with IRM that, although there is no
established measurement to articulate and test the actual user experience in Juba, IRM has
conducted testing/analysis of the embassy’s network performance and has taken steps to improve
it. IRM’s remediation efforts have been limited due to the lack of reliable communications
services available in Juba and the embassy’s sole reliance on its VSAT Systems satellite
system. Unreliable network services interrupt operations and can result in loss of data.

Recommendation 40: Embassy Juba, in coordination with Bureau of Information Resource
Management, should document specific network inadequacies and work with systems specialists
to improve the embassy’s capacity for quick, secure, and reliable communications on both the
unclassified and classified systems. (Action: Embassy Juba, in coordination with IRM)

Information Technology Licenses

        Embassy Juba is not in compliance with Department and Federal regulations designed to
safeguard against licensing violations and copyright infringements. According to 5 FAM 915.11,
“all software running on Department systems must have a valid license.” The hurry to establish
the embassy in 2011 had the Bureau of African Affairs improvising to acquire the embassy’s
computer workstation from multiple sources. Though all of the software came from Department
sources, the embassy has no record and cannot prove the equipment is licensed. The equipment
associated with the upcoming Global Information Technology Modernization installation is on
site and came with licenses, but the embassy cannot produce licenses for approximately 55
workstations. It is important that the embassy work with the Bureau of African Affairs to identify
                                       29
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

enterprise licenses, unused licenses, or new licenses for these workstations to address this
deficiency.

Recommendation 41: Embassy Juba, in coordination with the Bureau of African Affairs, should
obtain valid licenses for all embassy computer software. (Action: Embassy Juba, in coordination
with AF)

Consular Systems

        The OIG team found evidence of at least five outages of computer equipment and
programs that disrupted visa processing or American citizens services since the installation of
consular systems in summer 2012. Three incidents resulted in delays of more than 10 days
between reporting the problem to the Office of Consular Systems and Technology and a
resolution. It further appears that passport applications the section has been submitting
electronically to Washington have not been received in the U.S., and applicants had still not
received passports many months after they applied in Juba. The embassy accepts some
responsibility for the delays, because the entry-level officer handling consular duties also has
significant political responsibilities and is sometimes unavailable during the times needed for
testing a resolution. The continuing outages make the consular officer and the information
management section concerned about possible systemic problems with the equipment or the
installation process and warrant the immediate assistance of the Bureau of Consular Affairs.

Recommendation 42: The Bureau of Consular Affairs, in coordination with Embassy Juba,
should arrange the visit of a technician to Juba to resolve outstanding consular system problems.
(Action: CA, in coordination with Embassy Juba)




                                       30
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
Health Unit

Regional Medical Officer Visits

        A Foreign Service health practitioner is based at Embassy Juba. A regional medical
officer and a regional psychiatrist at Embassy Nairobi also serve the embassy. Medical
evacuations are possible only during daylight hours; there have been three since August 2012.
Given the stressful nature of assignment to Embassy Juba and the limited medical infrastructure
in South Sudan, it is important that the regional psychiatrist and the regional medical officer visit
the embassy as often as practicable to assess the health services and consult with the health
practitioner.

       Informal Recommendation 15: Embassy Juba should schedule visits from the regional
       medical officer and regional psychiatrist.

Local Nursing Coverage

        The Foreign Service health practitioner provides clinical services and supervises the
operation of the health unit in accordance with 16 FAM 113.5. There is no local medical advisor
providing support on a continuous basis. In addition, the practitioner participates in annual
nurses training and conferences. Arranging coverage during her absence is sometimes difficult.

       Informal Recommendation 16: Embassy Juba should implement a plan to provide
       temporary coverage during the absence of the Foreign Service health practitioner.




                                        31
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Management Controls
        The chief of mission’s annual statement of assurance underscored the distribution of
management control responsibilities for the mission among Embassy Juba, USAID, and
Embassy Khartoum. The statement did not mention any specific weakness. The OIG team
recognized the challenges to maintaining adequate controls and mandatory programs in Juba’s
difficult operating environment and with a small staff that already shoulders considerable
workload. Nonetheless, the OIG team identified some deficiencies.

Financial Management

Consular Receipts

        There are problems with cash accountability in the consular section. The consular officer
arrived with little cashier training and made some systems errors in his first months in operating
the Automated Cash Register System. Following a December visit of the regional consular
officer, the officer corrected some procedures, and he recently completed online cashier training.

Cashier Operations

        The embassy does not have a procedure to verify subcashier advances on a scheduled
basis. In accordance with 4 FAH-3 H-397.2-3, unannounced cash verifications are required for
subcashiers with advances over $1,000 and quarterly verifications for advances of less than
$1,000. Without periodic cash counts, there is no safeguard against possible fraud or
embezzlement of funds.

       Informal Recommendation 17: Embassy Juba should distribute a memo, complete with
       the appropriate forms, to all American supervisors of subcashiers, requiring them to
       perform unannounced cash reconciliations on a monthly or quarterly basis.

Medical Reimbursements

        In accordance with the local compensation plan, the embassy reimburses LE staff for
medical expenses. Embassy Khartoum prescribes this process, as Embassy Juba shares the same
local compensation plan. An OIG inspector found the process as exercised by Embassy Juba to
be unduly cumbersome, misunderstood by customers and service providers alike, and
inconsiderate of Juba-specific factors. Some employees cited instances of reimbursement taking
months. Some questioned the arbitrary requirement for employees to submit claims within 30
days of treatment, as many Juba employee family members reside in Uganda or Kenya. Medical
benefits are one of the most complex, expensive, and sensitive components of the compensation
plan. The challenge is to implement a process that is simple, fair, transparent, and timely, but
with adequate controls to prevent fraud.

Recommendation 43: Embassy Juba, in coordination with the Bureau of African Affairs, should
implement a medical claims reimbursement process for local staff. (Action: Embassy Juba, in
coordination with AF)


                                       32
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Visa Adjudication Review

        The DCM has not been carrying out required adjudication reviews for nonimmigrant visa
cases. This failure weakens oversight of the consular function. Such oversight is critically
important at Embassy Juba, where a first-tour officer handles consular operations.

Recommendation 44: Embassy Juba should require the deputy chief of mission to carry out
required adjudication reviews for nonimmigrant visa cases. (Action: Embassy Juba)




                                      33
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Juba, in coordination with the Office of the U.S. Special Envoy
for Sudan and South Sudan and the Bureau of African Affairs, should develop clear policy goals
and objectives to guide policy engagement. (Action: Embassy Juba, in coordination with
S/USSESSS and AF)

Recommendation 2: The Bureau of African Affairs should fold the Sudan and South Sudan
desks back into the bureau, once the conditions in the March 15, 2012, memo are met. (Action:
AF)

Recommendation 3: The Office of the U.S. Special Envoy for Sudan and South Sudan, in
coordination with Embassy Juba, should implement procedures for obtaining embassy
concurrence on planned foreign assistance projects. (Action: S/USSESSS, in coordination with
Embassy Juba)

Recommendation 4: The Bureau of Human Resources, in coordination with the Bureau of
African Affairs, should assign at least some incoming political/economic and public diplomacy
officers to Embassy Juba to 2-year assignments, with the first year in either the Bureau of
African Affairs or the Office of the Special Envoy for Sudan and South Sudan. (Action: DGHR,
in coordination with AF)

Recommendation 5: The Bureau of Human Resources, in coordination with the Bureau of
African Affairs, should approve Embassy Juba’s FY 2014 Mission Resource Request for three
eligible family member positions. (Action: DGHR, in coordination with AF)

Recommendation 6: Embassy Juba should contact the Office of Civil Rights to gain official
appointment of an Equal Employment Opportunity counselor. (Action: Embassy Juba)

Recommendation 7: The Bureau of African Affairs, in coordination with Embassy Juba,
should install and provide training on information-sharing systems, including SharePoint, contact
management, and records management systems, at Embassy Juba. (Action: AF, in coordination
with Embassy Juba)

Recommendation 8: Embassy Juba, in coordination with the Office of the U.S. Special Envoy
for Sudan and South Sudan, should develop a missionwide reporting plan. (Action: Embassy
Juba, in coordination with S/USSESSS)

Recommendation 9: Embassy Juba should create a central biographic file that is accessible to
Department of State personnel. (Action: Embassy Juba)

Recommendation 10: Embassy Juba should review the amount of in-country travel embassy
staff has performed since the embassy changed its practice on chartering planes, identify reasons
for the decrease, and adjust procedures as necessary. (Action: Embassy Juba)

Recommendation 11: Embassy Juba, in coordination with the Bureau of Human Resources
and the Bureau of African Affairs, should add one mid-level political/economic officer position
to increase reporting on refugee and other humanitarian issues by either creating a new position

                                       34
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

or transferring a position from Embassy Khartoum. (Action: Embassy Juba, in coordination with
DGHR and AF)

Recommendation 12: The Bureau of African Affairs, in coordination with Embassy Juba and
the Bureau of Consular Affairs, should upgrade position 10-004075 to FS-01, make FS-04
position number 10-004077 economic/consular, make FS-02 position number 14-121002
economic, and remove FS-02 position 10-125006 from the staffing pattern. (Action: AF, in
coordination with Embassy Juba and CA)

Recommendation 13: Embassy Juba should draft a public affairs plan to address mission
priorities. (Action: Embassy Juba)

Recommendation 14: Embassy Juba should draft a mission media plan for informing the
South Sudanese public of the extent of U.S. Government assistance and of the efforts of the
embassy. (Action: Embassy Juba)

Recommendation 15: Embassy Juba should update the registration of its grants to comply
with Federal law. (Action: Embassy Juba)

Recommendation 16: Embassy Juba should close all grants files with accurate and complete
documentation. (Action: Embassy Juba)

Recommendation 17: The Bureau of Educational and Cultural Affairs, in coordination with
Embassy Juba, should assess whether to establish a Fulbright program in South Sudan and, if
feasible, take such action. (Action: ECA, in coordination with Embassy Juba)

Recommendation 18: The Bureau of Educational and Cultural Affairs should fund a visit to
Juba by the regional English language officer for South Sudan to do a needs analysis of English
language programs. (Action: ECA)

Recommendation 19: The Bureau of Educational and Cultural Affairs should fund an initial
regional educational advising coordinator visit to South Sudan to conduct a needs analysis for
establishing an educational adviser position. (Action: ECA)

Recommendation 20: The Bureau of Consular Affairs should send a temporary duty consular
officer to Embassy Juba to set up internal control systems and help prepare the consular package.
(Action: CA)

Recommendation 21: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should implement a policy requiring that any sole consular officer assigned to
Embassy Juba complete the Consular Section Chief Basics Course (PC 550) prior to beginning
the assignment. (Action: CA, in coordination with DGHR)

Recommendation 22: Embassy Juba should fill the consular locally employed staff position
without delay. (Action: Embassy Juba)

Recommendation 23: The Bureau of Consular Affairs should provide funding for any new
consular local employee to travel to a post neighboring Juba for training. (Action: CA)


                                       35
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 24: Embassy Juba, in coordination with the Bureau of Consular Affairs,
should order and install a microphone system for the consular interview window. (Action:
Embassy Juba, in coordination with CA)

Recommendation 25: The Bureau of Consular Affairs should provide Embassy Juba and other
posts in the region with front-channel guidance on processing visa applications from the Sudan
People’s Liberation Movement and the Sudan People’s Liberation Army and update the South
Sudan reciprocity schedule with this guidance. (Action: CA)

Recommendation 26: The Bureau of Consular Affairs should provide funding for an annual
trip to Juba by the Nairobi consul general or other consular manager. (Action: CA)

Recommendation 27: The Bureau of African Affairs, in coordination with the Bureau of
Diplomatic Security and the Bureau of Overseas Buildings Operations, should complete a
risk/cost/benefit analysis that yields a decision on the question of constructing an interim office
building pending completion of a new embassy compound in Juba. (Action: AF, in coordination
with DS and OBO)

Recommendation 28: The Bureau of African Affairs, in coordination with Embassy Juba,
should implement immediate and transitional plans for provision of International Cooperative
and Administrative Support Services to Embassy Juba. (Action: AF, in coordination with
Embassy Juba)

Recommendation 29: Embassy Juba should implement procedures to disseminate
management information to staff in a timely manner. (Action: Embassy Juba)

Recommendation 30: Embassy Juba, in coordination with the Bureau of the Comptroller and
Global Financial Services and Embassy Khartoum, should reconcile the U.S. Agency for
International Development cashier accountability and close out the account with the U.S.
disbursing officer. (Action: Embassy Juba, in coordination with CGFS and Embassy Khartoum)

Recommendation 31: Embassy Juba should implement a plan to align locally employed staff
positions and functions, update and classify job descriptions as needed, assess workload, and
establish a rational staffing pattern that meets mission requirements. (Action: Embassy Juba)

Recommendation 32: Embassy Juba, in coordination with the Bureau of the Comptroller and
Global Financial Services and Embassy Khartoum, should implement a plan for training the
main timekeeper in Juba and installing the Windows Time and Attendance program to allow
Juba to report time and attendance directly to the payroll office, eliminating the need to go
through Embassy Khartoum. (Action: Embassy Juba, in coordination with CGFS and Embassy
Khartoum)

Recommendation 33: Embassy Juba should carry out an awards program that complies with
Department of State regulations and hold awards ceremonies twice a year, as prescribed in the
locally employed staff handbook. (Action: Embassy Juba)

Recommendation 34: Embassy Juba should implement a staff training plan. (Action: Embassy
Juba)


                                        36
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 35: Embassy Juba, in coordination with the Bureau of African Affairs,
should define its supply chain management system, including ordering, receiving, shipping,
paying, and controlling, and define and enforce responsibilities, accountability, and internal
controls. (Action: Embassy Juba, in coordination with AF)

Recommendation 36: Embassy Juba should implement a motor vehicle policy in accordance
with Department of State regulations. (Action: Embassy Juba)

Recommendation 37: Embassy Juba should implement a plan that limits drivers to 10-hour
shifts, in compliance with Department of State regulations. (Action: Embassy Juba)

Recommendation 38: The Bureau of Overseas Buildings Operations should repair the heating,
ventilation, and air conditioning system in the Embassy Juba controlled access area. (Action:
OBO)

Recommendation 39: Embassy Juba should implement a safety, health, and environmental
management program in accordance with Department of State regulations. (Action: Embassy
Juba)

Recommendation 40: Embassy Juba, in coordination with Bureau of Information Resource
Management, should document specific network inadequacies and work with systems specialists
to improve the embassy’s capacity for quick, secure, and reliable communications on both the
unclassified and classified systems. (Action: Embassy Juba, in coordination with IRM)

Recommendation 41: Embassy Juba, in coordination with the Bureau of African Affairs,
should obtain valid licenses for all embassy computer software. (Action: Embassy Juba, in
coordination with AF)

Recommendation 42: The Bureau of Consular Affairs, in coordination with Embassy Juba,
should arrange the visit of a technician to Juba to resolve outstanding consular system problems.
(Action: CA, in coordination with Embassy Juba)

Recommendation 43: Embassy Juba, in coordination with the Bureau of African Affairs,
should implement a medical claims reimbursement process for local staff. (Action: Embassy
Juba, in coordination with AF)

Recommendation 44: Embassy Juba should require the deputy chief of mission to carry out
required adjudication reviews for nonimmigrant visa cases. (Action: Embassy Juba)




                                       37
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Juba should implement a plan for entry-level officer
development.

Informal Recommendation 2: Embassy Juba should, after the official appointment of an Equal
Employment Opportunity counselor, post information concerning the Equal Employment
Opportunity program on its SharePoint Web site.

Informal Recommendation 3: Embassy Juba should establish working groups for each
Mission Resource Request objective.

Informal Recommendation 4: Embassy Juba should start uploading informal reports on
humanitarian developments to a content management system.

Informal Recommendation 5: Embassy Juba should recreate a dedicated FSN-09 protocol
position and hire an experienced specialist with strong local contacts and English language skills.

Informal Recommendation 6: Embassy Juba should revise position descriptions for local
employees in the public affairs section to define more accurately their cultural and information
duties.

Informal Recommendation 7: Embassy Juba should work with the Bureau of Consular Affairs
to determine what additional job-related training the current consular officer should receive in
the months remaining in his tour and to provide this training.

Informal Recommendation 8: Embassy Juba should seek guidance from the Bureau of
Consular Affairs as to how to dispose of the 13 pending Consular Report of Birth Abroad files.

Informal Recommendation 9: Embassy Juba should publish an embassy notice containing
written guidance about the referral policy.

Informal Recommendation 10: Embassy Juba should designate an alternate cashier and issue a
cash advance.

Informal Recommendation 11: Embassy Juba should affix an emergency payment stamp to
any payments exceeding $500 and have the deputy chief of mission sign them before
disbursement

Informal Recommendation 12: Embassy Juba should implement a representation plan based
on promoting mission goals and objectives and prepare an allotment of funds that the chief of
mission can allocate to embassy sections.

                                       38
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 13: Embassy Juba should issue a management notice describing
procedures for submitting representation claims and establishing per capita limits for various
types of entertainment.

Informal Recommendation 14: Embassy Juba should implement an orientation program for
newly arrived Americans and recently appointed locally employed staff.

Informal Recommendation 15: Embassy Juba should schedule visits from the regional
medical officer and regional psychiatrist.

Informal Recommendation 16: Embassy Juba should implement a plan to provide temporary
coverage during the absence of the Foreign Service health practitioner.

Informal Recommendation 17: Embassy Juba should distribute a memo, complete with the
appropriate forms, to all American supervisors of subcashiers, requiring them to perform
unannounced cash reconciliations on a monthly or quarterly basis.




                                       39
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                     Name                                    Arrival Date
Ambassador                           Susan D. Page                                12/2011
Deputy Chief of Mission              Michael McClellan                             9/2012
Chiefs of Sections:
  Consular/Political                 Oliver Mains                                  7/2012
  Economic                           Walter Miller                                 8/2012
  Health Unit                        Vickie Burnham                                8/2012
  Information Resources Management   Michael Dugan                                 7/2012
  Management                         Nancy B. Brannaman                            3/2013
  Political                          James Liddle                                  8/2012
  Public Affairs                     Tiffany McGriff                               8/2012
  Regional Security                  Robert Karpowski                              6/2012
  International Narcotics and Law                                                  9/2011
  Enforcement                        Mary Walz
Other Agencies:
  Centers for Disease Control and    Christi Murray (temporary duty)         Intermittently
  Prevention                                                                    since 2010
  Defense Attaché Office             USA Lt.Col. Clement Ketchum                May 2012
  Joint Logistic Element             USN Lt. Tyler Marshburn                     Oct 2012
  Office of Security Cooperation     Filled by temporary duty personnel to
                                     May 2013
  Office of Transnational Issues     Patrick Haley                               Sep 2012
  U.S. Agency for International                                                 Aug 2012
  Development                        William Brands




                                        40
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AFRICOM           Combatant Command for Africa

BBG               Broadcasting Board of Governors

DCM               Deputy chief of mission

Department        U.S. Department of State

DOD               Department of Defense

EEO               Equal Employment Opportunity

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

IAA               Interagency agreement

ICASS             International Cooperative Administrative Support Services

INL               International Law Enforcement

IRM               Bureau of Information Resource Management

LE                Locally employed (staff)

NEC               New embassy compound

PAO               Public affairs officer

PEPFAR            President's Emergency Plan for AIDS Relief

RELO              Regional English language officer

S/USSESSS         Office of the U.S. Special Envoy for Sudan and South Sudan

USAID             U.S. Agency for International Development




                             41
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
